         Office of Inspector General
         Briefing Report




Increased Region 8
Involvement Would Improve
Tribal Program Results
Report No. 100370-2002-1-000100   March 29, 2002
Inspector General Resource Center
 Conducting the Audit:            Central Audit and Evaluation Resource Center
                                  Denver, Colorado Office


EPA Region Covered:                 Region 8


Program Offices Involved:           Tribal Assistance Program
                                    Grants, Audit, and Procurement Program


Audit Conducted by:                 Larry Dare
                                    Thomas Herrod




Cover:           The illustration is part of an EPA poster that depicts Tribes’
                 sovereign right to protect the water, land, and air. The cover
                 illustration represents air.
               UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                OFFICE OF INSPECTOR GENERAL
                       CENTRAL AUDIT AND EVALUATION RESOURCE CENTER          BRANCH OFFICES:
                                    901 NORTH 5TH STREET         1445 Ross Avenue, Suite 1200
                                 KANSAS CITY, KANSAS 66101           Dallas, Texas 75202-2733
                                         913-551-7878                            214-665-6621
                                       FAX: 913-551-7837                  FAX: 214-665-6589

                                           March 29, 2002                       999 18th Street Suite 300
                                                                            Denver, Colorado 80202-2405
                                                                                           303-312-6872
                                                                                     FAX: 303-312-6063
MEMORANDUM

SUBJECT:      Briefing Report: Increased Region 8 Involvement Would Improve Tribal Program
              Results
              Briefing Report No. 100370-2002-1-000100

FROM:         Jeff Hart
              Branch Manager
              Denver Office

TO:           Jack McGraw
              Acting Regional Administrator
              EPA Region 8

This is our briefing report titled Increased Region 8 Involvement Would Improve Tribal Program
Results. As you know, we held a briefing with you and your staff on March 25, 2002. We have made
changes to the draft briefing report we sent you on February 15, 2002, based on your comments during
our briefing and on your written response. A copy of the presentation slides is included as Appendix I
and your complete response is included as Appendix II.

We recently issued separate financial audit reports for each of the four Tribes we audited (Northern
Cheyenne, Rosebud, Crow, and Lower Brule). See Appendix III for report titles, numbers, and dates.
This report presents our performance audit findings and recommendations for Region 8 based on our
audits of those four Tribes.


Action Required

In accordance with Environmental Protection Agency (EPA) Order 2750, you, as the action official,
are required to provide this office with a proposed Management Decision within 90 days of the report
date. For corrective actions planned but not yet completed, providing a corrective action plan with
specific milestone dates will assist us in deciding whether to close this report.
                                                                       Increased Region 8 Involvement
                                                                  Would Improve Tribal Program Results

We have no objection to the release of this report to any member of the public. This report contains
findings that the Office of Inspector General (OIG) has identified and corrective actions OIG
recommends. This report represents the opinion of OIG and the findings in this report do not
necessarily represent the final EPA position. Final determinations on matters in this report will be made
by EPA managers in accordance with established EPA audit resolution procedures.


Findings

Although Region 8 has taken some important steps to help Tribes comply with grant requirements
during the last several years, three of the four Tribes we visited had difficulty supporting costs claimed
and managing their environmental grants during the period covered by our audit (1996 through 2000).
The Region has recently taken some additional positive, proactive steps to help Tribes improve
performance and has shown a willingness to take strong steps when it deems necessary. Even so, three
of the four Tribes we visited had difficulty managing their environmental grants.

Region 8's positive, proactive steps have included improving communication with and support for some
Tribal environmental staff, raising performance issues with Tribal Chairpersons, holding its third annual
training session for Tribal grant managers, and conducting 24 on-site reviews during the past 6 years.
The Region has also taken strong steps to bring Tribes into compliance with grant requirements. The
Region has withheld grant payments for some grants, terminated four grants, demanded repayment of
grant funds, designated two Tribes as high risk, and required one Tribe to implement a financial
management action plan.

However, three of the four Tribes we visited still had significant internal control and accounting system
weaknesses, did not always comply with grant regulations, and did not consistently accomplish grant
objectives. We questioned approximately $1.37 million of the approximately $1.97 million we audited
primarily for three reasons: (1) Tribal accounting systems could not produce a complete, accurate list
of costs charged to the grant, (2) Tribal payroll systems did not meet Office of Management and
Budget Circular A-87 requirements, and (3) Tribes could not support costs claimed. Generally, three
of the four Tribes we visited did not file required financial and program progress reports timely, two
Tribes did not understand or did not follow recipient match requirements, and two Tribes used General
Assistance Program grant funds inappropriately. Additionally, some programs did not fully accomplish
grant objectives. For example, one Tribe's General Assistance Program coordinator completed the
Tribe's water project but charged her time to the General Assistance Program grant; another Tribe
produced no final product under its General Assistance Program; and a third Tribe hired and paid a
General Assistance Program coordinator who was not physically present at the reservation and
produced virtually no work.




                                                    2                  Report No. 100370-2002-1-000100
                                                                      Increased Region 8 Involvement
                                                                 Would Improve Tribal Program Results

Recommendations

We recommend that the Acting Regional Administrator, Region 8:

1.     Continue to actively participate with the National EPA Grants and Debarment Tribal
       workgroup to develop an EPA/Tribal compliance or review guide for Management Assistance
       Program reviews that provides a comprehensive approach to assessing Tribal grant
       management capabilities to help improve Tribes':

       A.     Accounting skills and accounting systems,

       B.     Record keeping systems (to support costs claimed on environmental grants),

       C.     Understanding of grant requirements, and

       D.     Compliance with grant requirements.

2.     Continue to actively participate with the National EPA Grants and Debarment Tribal
       workgroup to formulate a strategy to address long-standing, systemic issues associated with
       Tribal grant management.

3.     Continue to work with the Tribes to help improve their:

       A.     Ability to identify, hire, and train a more skilled workforce;

       B.     Understanding and appreciation of the value of strong internal controls; and

       C.     Understanding of the value of a more organized environmental department management
              structure.

4.     Develop an approach to address noncompliance on program reporting requirements including
       the possibility of not making new grant awards until the grantee achieves compliance.

5.     Regularly review sources of information such as other agencies' high risk designations and
       Tribes' single audits to help identify Tribes that would benefit most from assistance.

6.     Continue to take appropriate actions when grant requirements are not met, including grant
       termination and designating grantees as high risk.




                                                   3                   Report No. 100370-2002-1-000100
                                                                      Increased Region 8 Involvement
                                                                 Would Improve Tribal Program Results

Agency Comments and OIG Evaluation

Region 8 generally agreed with our findings and recommendations. Regional staff provided additional
information regarding actions the Region has taken to help improve Tribal grants management and
actions taken when Tribes are unable to comply with grant requirements. Region 8 and EPA Grants
and Debarment managers offered suggestions that, if implemented, we believe will benefit Tribes
nationally as well as in Region 8. The Region also committed to continue its ongoing training and
oversight programs.

Based on the Region's comments, we modified our report and the accompanying briefing slides where
appropriate. Specifically, we added additional examples of best practices and strong actions taken by
Region 8 to improve Tribal grants management and protect EPA grant funds. We also modified our
recommendations to recognize Region 8's participation on the National EPA Grants and Debarment
Tribal workgroup and the Region's willingness, through the workgroup, to help address longstanding,
systemic Tribal grants management issues by soliciting the help of other Federal agencies.

Objectives

Our overall objective was to determine the validity of allegations regarding the effectiveness of the
Region's and Tribes’ grants management. Specifically, our performance audit objectives were to
answer the following three questions:

       •       Are Tribes’ internal/management controls sufficient to provide reasonable assurance
               that assets are protected?

       •       Have Tribes substantially complied with legal and grant requirements?

       •       Have the completed projects accomplished the objective(s) for which grant funds were
               awarded?


Scope and Methodology

We initiated this review as a result of a December 7, 1999, anonymous letter addressed to the EPA
Region 8 Regional Administrator alleging grant mismanagement and other issues in the Regional Tribal
program. With Region 8's support, we reviewed allegations in that letter as well as OIG hotline
complaints regarding the Region's Tribal program. We conducted our audit in accordance with
Government Auditing Standards, issued by the Comptroller General of the United States.

We reported on the legality of Region 8's Tribal Assistance Program grant awards and the Tribal
Assistance Program's internal management in our September 29, 2000 report, Increased Focus on


                                                    4                  Report No. 100370-2002-1-000100
                                                                   Increased Region 8 Involvement
                                                              Would Improve Tribal Program Results

Grant Management and Internal Relationships Would Improve Region 8's Tribal Assistance Program
(Report No. 2000-P-000615-00021).

To accomplish our objectives, we audited grants at four Tribes. We selected these Tribes because each
had significant and meaningful involvement with EPA programs, their past performance indicated they
would benefit from an audit, and each Tribe had recently closed grants. We audited grants covering
the period 1996 through 2000. We conducted our fieldwork between March 2001 and March 2002.
For each transaction we selected to test, we reviewed data from the Tribe’s accounting system and
supporting documentation. We discussed the Tribe’s management system with Tribal environmental
and accounting staff. We also interviewed program staff at each Tribe.

If you have any questions, please call me at (303) 312-6169 or Larry Dare at (303) 312-6969. Please
refer to report number 100370-2002-1-000100 on all correspondence.


Appendices

Appendix I: Briefing Slides

Appendix II: Region 8 Response

Appendix III: Tribal Financial Audit Reports Issued

Appendix IV: Distribution




                                                  5                Report No. 100370-2002-1-000100
         Increased Region 8 Involvement
    Would Improve Tribal Program Results




6        Report No. 100370-2002-1-000100
                                              Increased Region 8 Involvement
                                         Would Improve Tribal Program Results



                                                                 Appendix I
                      Briefing Slides

                                      ~



                         --~-     -   -- -   --             '



        Increased Region 8 Involvement
         Would Improve Tribal Program
                    Results




                     March 25, 2002




                         -~---    -
                     ~



-----            -         -
                           -~- - - -              --




             EPA Offices Invo lved

·:· Office of [nspector General (OfG)
  ·t·   Central Audit and Evaluation Resource Center -
        Denver Office
·:· Region 8 Grants, Audit, and Procurement
    Program
·:· Region 8 Tribal Assistance Program (TAP)




                             7                Report No. 100370-2002-1-000100
                                                              Increased Region 8 Involvement
                                                         Would Improve Tribal Program Results



                                                                                 Appendix I
                    Briefing Slides (continued)


ji!Zji!i$ ;,;.;¢:;swfiMML a   Ci,[,.,t                        z
                                         ~ j;t;li¥\SLS. . . 3 . . )L.




                                         Purpose
 •:• In Response to a December 7, 1999 Allegation
     Letter We Reviewed:
      Phase /
           <• Legality of TAP Grant J\ wards
      Phase II
           ·~TAP    Internal Manag,ernent
      Phase Ill
           .:•Tribal Bnvirotunental Program Manngcme.nr and
              Expenditures




            Phase III Financial Scope and
                    Methodology
   ·:· Tribes Visited
       ·:· Northern Cheyenne - March 8-1 2, 200 I
       ·:· Crow - March I 5-I9, 200 I
       ·:· Lower Brule - Apri l 2-6, 200 I
       ·:· Rosebud - Aprii30-May 4, 200 1
  ·:·Period Audits Covered: fiscals 1996-2000
  ·:· Number of Grants Audited: 13
  ·:· Total Dollar Value of Grants: $ 1,969,858




                                              8               Report No. 100370-2002-1-000100
                                                              Increased Region 8 Involvement
                                                         Would Improve Tribal Program Results



                                                                                     Appendix I
                          Briefing Slides (continued)


[tx !bWJ. !t, .• :aOM .:&W.:i!~~ l·!                 .t . q "'":" •. a.osJ


             Phase III Financial Scope and
                 Methodology (cont.)
 ·:·Judgmental Transaction Testing
 ·:· In Accordance with Government Auditing
     Standards
 ·:·Phase III Fieldwork Conducted March 2001 -
     March 2002




r.   ,;;;:;:;:;z 4 .. ,   p:.Qa.   ~   If;~ r7.j   ;L=t1Zi!s;; . .* ) ,z 4 :& p..)


 Phase III Briefin g Report Distribution

 ·:·Region 8 Regional Administrator and Staff


 ·:· Office oflnspector General Staff

 .;. EPA Headquarters Staff




                                           9                    Report No. 100370-2002-1-000100
                                                Increased Region 8 Involvement
                                           Would Improve Tribal Program Results



                                                                       Appendix I
            Briefing Slides (continued)




                       Reporting
·:·Phase I and Phase II Reported September 29, 2000
·:· Phase III Financial Reports
  •:· Northern Cheyenne-March 5, 2002
  .;. Rosebud-March 19, 2002
  ., Crow-March 27, 2002
  ·> Lower Brule-March 29, 2002
·:> Phase lii Briefing Report
  .c. Briefing-March 25.2002
  .c. Memorandum to Acting Region 8 Administtator




        Phase I and II Conclusions
·:• Increased Focus on Grant Management and
    Internal Relationships Would Improve Region 8's
    Tribal Assistance Program, September 29, 2000
  ·:·Region 8 Chose to Focus Its Tribal Program on
     External Relationships and Policy Development
  ·:·Region 8 Legally Awarded Tribal Grants, but Grant
     Management Needed Improvement
  ·:·Imbalanced Tribal Program Management Focus




                              10                    Report No. 100370-2002-1-000100
                                               Increased Region 8 Involvement
                                          Would Improve Tribal Program Results



                                                                  Appendix I
            Briefing Slides (continued)




    Phase III Performance Objectives
·:· Are Tribes' Internal/Management Controls Sufficient to
    Provide Reasonable Assurance T hat Assets Are Protected?

·=· Have Tribes Substantially Complied With Legal and
    Grant Requirements?

·=· Have the Completed Projects Accomplished the
    Objective(s) for Which Grant Funds Were Awarded?




     Phase III Performance Scope &
              Methodology
·:· December 7, 1999 A !legation Letter
•:· September 29, 2000 Report
·:· Four Financial Reports
·=· Four Tribes Selected:
     ·:· Signiticant Involvement with EPA Programs
    ·=·Past Performance
     ·=·Recently Closed Grants




                             11                Report No. 100370-2002-1-000100
                                                            Increased Region 8 Involvement
                                                       Would Improve Tribal Program Results



                                                                               Appendix I
                     Briefing Slides (continued)


j&::i#C@£2 .




                                       Findings
  ·:•Insufficient lntemaVManagement Controls
       ·:· Internal Control Weakness
       ·:·Accounting System Weaknesses
  ·:· Grant/Legal Requirements Not Consistently Mel
  ·:· Projects Did Not Consistently Accomplish Their
      Objectives
       •!• Lack   of Meaningful, Timely Progress Reports
        ·~Other




f4MJ!&;t s:if(Wjf- \414C .. L;s . tl



                              Weak Controls

   ·=· One Tribe Had Good Controls
   ·!·Three Tribes Need Improvement
         ·:· Tribal Management Issues
               .:. Lack of Oversight
               •:· No Clear Line of ilmhority
               <· Staff Competencies Under-Developed
         ·:-Programs Did Not Focus on Results
         ·:· Importance of a Good Control Program Needs to Be
             Re<:ognized




                                          12                Report No. 100370-2002-1-000100
                                                   Increased Region 8 Involvement
                                              Would Improve Tribal Program Results


                                                                       Appendix I
              Briefing Slides (continued)



  -           . -        "'



             Causes of Weak Controls
·:• Lack of Understanding of What Good Internal
    Controls Are
·:• Lack of Appreciation ofthe Benefit of Controls
·:·Inadequate Accounting Knowledge/Skills
·:· Lack of Appreciation of the Need for a More
    Organi zed Management Structure
·:· Region 8 Did Not Provide Enough Technical
    Ass istance




       Accounting System Weaknesses
-:. One Tribe Had Consistent and Orderly System
·:· Three Tribes Had Varying Degrees of Inadequate
    Structure Within Accounting System
·:· Three Tribes Had Inconsistent Supporting Doc umentation
      ·:· Tribal Staff Could Not Find Supporting Documentation
      <• Supporting Documentation Did Not Include All Information
          Necessary 10 Understand How Cost Was Allocated to Grant
      ·> Tribal Staff Did Not Adequately Document All Journal
        Vouchers and Adjust ments




                                13                  Report No. 100370-2002-1-000100
                                                                          Increased Region 8 Involvement
                                                                     Would Improve Tribal Program Results


                                                                                                        Appendix I
                        Briefing Slides (continued)




          Accounting System Weaknesses
                     (cont.)
  ·:· Accounting System Inadequate - Should Be
      Capable of Maintaining Accurate/Separate
      Accounting for All Grants
  ·:·Shifting of Money trom Different Grants and
      Between Budget Items Caused Confusion




p;;:; lVLW 4l!C..t>.J   .   Ji ,.i£,.   -~ :   •    1:JJ1 (14QI,\¢Jii¢lN!IJlt.   QMJJ>:P;; . tl 4*;!(
                                        ~
                    Causes of
          Accounting System Weaknesses

·:· Lack of Understanding ofFederal Grant
    Requirements for an Adequate Accounting System
·:·Inadequate Record-keeping Systems
·:· Inadequate Accounting Skills and Systems
·:· TAP Did Not Consider Financial Technical
    Assistance as Part of Their Responsibilities




                                               14                                Report No. 100370-2002-1-000100
                                                       Increased Region 8 Involvement
                                                  Would Improve Tribal Program Results


                                                                              Appendix I
           Briefing Slides (continued)


          .1:   c.zJoN¥~   i(:J!,Pill!>! 1,; a~£ 1iSS :z5 ;;i:; - .t:!f:.?l
     Grant/Legal Requirements Not
           Consistently Met

·:·Payroll Systems Did Not Meet OMB Circular
    A-87 Requirements
·:· One Tribe A warded Contract Inappropriately at
    Region's Directi()n
·:· General Assistance Program (GAP) Grant Used
    Inappropriately




Causes ofNot Meeting Requirements
·:·Lack of Familiarity With or Knowledge ofFederal
   Grant/Legal Requirements
·:·Lack of Appreciation of the Need to Meet
   GrantfLegal Requirements or Consequences ofNot
   Meeting Them




                                  15                    Report No. 100370-2002-1-000100
                                                                  Increased Region 8 Involvement
                                                             Would Improve Tribal Program Results


                                                                                          Appendix I
                         Briefing Slides (continued)

j&CSffii.. # 4 1.,1,                   il - - .. ,,
                       , kit: At , . .At#~~         Ii!il.!12.,£2
                                                             - - .q_qw........ il4Rli ~
                                                                                      ~



    Causes of Not Meeting Requirements
                  (cont.)

  ·:· Region 8 Encourages Tribes to Stretch Limits of
      GAP Funding Beyond What is Allowed
  ·:·Region 8 Did Not Provide Adequate Technical
      Assistance




                  Projects Did Not Consistently
                  Accomplish Their Objectives
   ·:·One Tribe's Reports Were Meaningful, Timely,
       and Indicated Project Objectives Were Achieved
   ·:· Three Tribes Lacked Adequate Progress Reports
       Contributing to Non or Untimely Achievement of
       Some Objectives
          •:• Lack of Meaningful Content
          ·:· Not Meeting Deadline for Program Performance
              Repot1s
          ·:· inconsistent Progress Reporting




                                             16                    Report No. 100370-2002-1-000100
                                                         Increased Region 8 Involvement
                                                    Would Improve Tribal Program Results


                                                                             Appendix I
              Briefing Slides (continued)


                                               '
                                                                --       -
         Causes of       uate/Untimely
               Progress Reports

·=·Lack of Knowledge and Understanding of
    Importance of Reporting Requirements
·!• Lack of Appreciation of the Need for Meaningful,
    Timely Progress Reports and How They Can
    Benefit the Tribes' Achievement of Obj ectives
•:· Lack of Good Writing Skills




                                    -~




                                                   --------------.
              -   --   ~   ~   ~    -   -, -       --       -   -   --



                    Region 8
          Best Practices/Actions Taken
~·  Examples of Good Communication and Support
·:· Met with Tribal Chainnan to Discuss Seriousness of
     Issues
·:· Withheld Grant Payments tor At-Risk Grants at Some
    Tribes
·~ Continued Region 8 Tribal Grants Training for Tribes




                               17                        Report No. 100370-2002-1-000100
                                                             Increased Region 8 Involvement
                                                        Would Improve Tribal Program Results


                                                                                              Appendix I
             Briefing Slides (continued)




               Region 8
 Best Practices/Actions Taken (cont.)
·:· On Site Technical Assistance Reviews at 24 Tribes
    During Past 6 Years
·:· Withheld Grant Payments
·:·Terminated Four Tribal Grants
·:· Demanded Repayment of Grant Funds
.:·Designated Two Tribes as "High Risk"
·:·Required Implementation of Tribal Financial
    Management Action Plan




             &(\1(\11\Aj\ii;il ·    -: ~   rw   f/LWQ,.<,'ii ..•••1It I ,n.,;,p;J.Oii:T.i'l




                                   Effects
·=· Less Time to Help Improve Tribal Grant Management
    Skills
·:· Grant Projects Were Not As Successful As They Could
    Have Been in Accompl ishing Their Objectives
·:· Tribes Did Not Benefit As Much or As Soon As They
    Would Have from Improved Environmental Conditions
-:• Questionable Expenditures Could Have Been Used to
    Improve Tribal Environmental Conditions




                                      18                         Report No. 100370-2002-1-000100
                                                       Increased Region 8 Involvement
                                                  Would Improve Tribal Program Results


                                                                          Appendix I
                  Briefing Slides (continued)


                                            -------------..
         -   --          ~
                                             --       - -- -          .

                    Recommendations
·:· Continue to Actively Participate With Grants and
    Debarment Workgroup to:
   ·:· Develop an EPNTribal Compliance N Review Guide
       r.o Improve Tribes' :
        <·Accounting Skills (tnd Systems
        ·:· Record Keeping Systems to Support Costs Claimed on
         Environmental Grmus
        <:. Understanding of Grant Requirements
        .:. Compliance with Grant R«Juirements




- --


             Recommendations (cont.)
·:·Continue to actively participate with Grants and
   Debarment Workgroup to:
   ·=· Formulate a Strategy to Address Long-Standing,
       Systemic Issues Associated with Tribal Grant
       M~lllagement




                                  19                   Report No. 100370-2002-1-000100
                                              Increased Region 8 Involvement
                                         Would Improve Tribal Program Results


                                                                 Appendix I
           Briefing Slides (continued)




        Recommendations (cont.)
·>Continue to Work with Tribes to Improve Their:
  ·=·Ability to IdentifY, Hire, and Train a More Skilled
     Work Force
  ·:·Understanding and Appreciation of the Value of Strong
     lntema\ Col\tro\s
  •) Understanding the Value of a More Organized
     Environmental Management Structure




                      ~---1
                         -- - .
                      _...,~ - -     ~




        Recommendations (cont.)
·:·Develop an Approach to Address Noncompliance
    on Program Reporting Requirements
·:·Regularly Review Other Sources of Infomtation to
    Help Identify Tribes Most in Need of Assistance
·:· Continue to Take Appropriate Actions When Grant
    Requirements Ale Not Met




                           20                 Report No. 100370-2002-1-000100
                                                                    Increased Region 8 Involvement
                                                               Would Improve Tribal Program Results


                                                                                        Appendix I
             Briefing Slides (continued)



 -       -         -   __
                                                    ----
                                                           -

                            .
                                .
                                    .
                                        .
                                            _
                                                ~
                                                    -
                                                                                    ~
                 Key Contacts
·:·Jeff Hart, Branch Manager, 303-312-6169
•:• Larry Dare, Team Leader, 303-312-6969




                                    21                              Report No. 100370-2002-1-000100
                                                                             Increased Region 8 Involvement
                                                                        Would Improve Tribal Program Results


                                                                                                       Appendix II
                                     Region 8 Response




               UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                                  REGION   a
                                       999 18nt STREET • SUITE 300
                                         DENVER,. CO 80202-2466
                                            PhOne S00-227-8917
                                        http:/lwww.cpo~.gov/region08



                                             MAR 2 7 lDJ2
Ref: 81MS-O

MEMORANDUM

SUBJE~Incrg:f'"~~lve.nent Would Improve Tribal Program Results
FROM:            ~n,~
                 cting Reg:ional Admjnist.rator

TO:            JelfH:>rt
               Branch Manager
               Denver Office

       Thank you for your draft briefing: report titled Increased Region 8 lnvol\•ement Wqu/d
Improve Tribal Program Rtsulrs. We recognize cbe s-ignificant efforts you and yo\lr stafThave
undertaken over the last two years in your reviews oftbe Region's tribal program.

       We-share your concerns regarding the-findings of the four Tribal fmanc ial audit reports.
AU granttc$ mtL.,I adhere to the Federal grant rcquiremcntc>. The. Region's expe-rience. with our
Tribitl griUltees generally paralJels the observations you make, which is that a nwnber of Tribes
need to focus immcdhnc attcntioo to internal control problems. accounting weaknesses, and grant
reporting requirements.

        The Region has tilken many SpeCific and significant actions as a ~uJt of this $ituation.
Your briefing report acknowledges some of the best praeticesfactions taken by the Region~ but
we.ask that your Jepc>rt rtfleL1 a number of other Regional efforts. Ea<:h of the past three years
the Region has provided a grants training program for Tribes, covering twO full days, with
typically thirty or more aueodccs. Your office participated in this training offered last fall. Over
twenty Tribes bavc bnd on-site technical assistance reNiews over lhe past six years. which has
included obscrvatiou.~ from the Region roncemiog graots maoagemcnt weaknesses. Regional
TribaJ program mnoagcrs have stressed to the Tribal environmental directors in recent Regional
Opc111tions Council (ROC) meetings the importance of their attention in the area of financial
managemcot requirement$.

       Further, we ask that the report acKnowledge the ac.ti on..~ we have taken when (i_nancial
sys1ems have been fotu1d deficiem and/or gn\llt requirements have not been met by Tribes. We




                                                      22                       Report No. 100370-2002-1-000100
                                                                              Increased Region 8 Involvement
                                                                         Would Improve Tribal Program Results


                                                                                                             Appendix II
                   Region 8 Response (continued)




have no.-o Tribes cum:ndy designated as ..high risk.. due to financial management problems, and
we have DOl roade oew ......·urdsto <:me ohbe:'!e Tribes. Another Tribe i.s implementing an actioo
pfan that Tribal leadership developed to resolve financial management wt:akncS$t$. which we
imist<:d upOn 3$ u condition for n:.:tiving f1.1rtbc:t- EPA 8r.tz1Ls, We h;ave tmnin.atcd ;~tot;~l of si.x
tribal grants O\'Cf the past three years due to a ,.·arid y of petformance tssucs. Fun.her, we ha\<e
bad ti'le sinla<i()nS i.n v.i~h tbc: Region demasxlcd repsyme•n of g13J)t funds. We pn:viously
provided this information for your Pt.nse l report, and we will separately provide to you an
update: to l.h;u List of actions..                                                             ·

        J know that our commonality is the s.in•:cre desire to have irlbaJ programs in Region 8
that effectively addtc$$ the very 5c:rious Cl'l\•"itoruncl\tal problems that exist on Indian land$.
EPA wl<:Quivocally bali the respOnsibility to ovtrSee tomplii!JlU with federJJ eraut rtquirtments
for sronts that we award. This is a particularly difficult and complicated ehallense as it perui.os
to some of our Tribal grantees. It is for exattly this reason tbat the Region initiated as.si.'\lance
frorn EPA Headqu~, and why an agency-wide ....-orkgrol.l() ba.<~; been formed to address tribal
financial grantee compliance. Tb~ ftmdamenta) parts of this issue are being examined by the
V.'Ofk$rOup, includil\8 ret~chins out to the Bureau of Indian Affai.rs (BIA) tO explOrt· ways fOJ \1$
to work togelher on 1htse iMtles, The work.group is identifying extstint actions ttnd trainint
provided to Tribes regarding fLilaru:i<tl mar.agement. and plat:!$ to .seek new, and pouibly yet
untried :tppro:-.chesthat are promi$ine. A$ you know, 1he lll:Spee!()f Geoeral's Offiet!! is.
represented on this workgroup.

         The set of roc:ommendations in the briefing report states that the solutioo is ''more
me;Uli.rtgful o~·~gb1 and tminins, for Trib-e$". Tbe Region ill tQnllll.ined tO t.tid,ng all the a.cii<>n$
it ('an effcctJvely address the i.ssue ofTribal finandal management of EPA gr.mts aod to address
those.areas \.\o'hc:rc we can make a differmcc. Spcdfkatly, v.-e U.'OUld ask that your
n:oommendatioos reflect the following itegionuJ ac1ioo$:

                 The Region will implement Tribal assistance approaches in the a.rea or firuancial
                 manasem.cnt that ha\'e becl\ SUCOC!l;5fully proven and/or appn.1Sches that show
                 J*ti¢.ulu pror.njse. These 11(.1ic>ns will be based on the Cim:Jings of the
                 H~-adquarters workgroup that is now underway.


                 Tile Region will eontinue to perform e>n·site financial reviews orTribal g:ramees.
                 The number -unde11akeo will be four or n~·e per year.

                 We ha"'e several Tribes whkh the Tribru Assista.noe Ofllce and the Grants Office
                 arc coordinating regular revi~'S of grant requirementS due to pas.1 unsatisfactory
                 performance. This monitoriog has impro\·ed Tribal compliance. There may be
                 additional Tribes for v.'hicb this txtrJ effon is appropriate. Fun.bet. the Tribal
                 Assistance Program will de\'clop an approach to address noncompliance regardins
                 program repOrting requirements. This approach will include the possibility of
                 suspending new grant av;'tl!'ds until comptiat~oe with these requirementS ts
                 ac:hit:..-ed.




                                                   23                             Report No. 100370-2002-1-000100
                                                                             Increased Region 8 Involvement
                                                                        Would Improve Tribal Program Results


                                                                                                      Appendix II
                         Region 8 Response (continued)




               The Region will c:ontin-ue lO take appropriate atticm!l when grant requirements are
               nut met, including disallowance of eosu. termination of grants, ..high risk "
               designations. etc.

       The challenges identified by your report m large and very serious. We know that you
understand and appreciate th~t this is an area which demands attention from many parts of the
Agency. including the lG's Office. The Regional Office is very conunined to the eftOnswe ha,•e
oudirn:d here in order lO continue tO have a very s·uoocss:fu1 partnership with the Region 8 Tribes
COU"Ce.miDg the environmental problems faced on Tribal lands.




                                                     24                        Report No. 100370-2002-1-000100
                                                              Increased Region 8 Involvement
                                                         Would Improve Tribal Program Results


                                                                                Appendix III
                       Tribal Financial Audit Reports Issued


EPA Grants Awarded to the Northern Cheyenne Tribe (Report No. 1000370-2002-1-000089)
 dated March 5, 2002

EPA Grants Awarded to the Rosebud Sioux Tribe (Report No. 1000370-2002-1-000096)
 dated March 19, 2002

EPA Grants Awarded to the Crow Tribe (Report No. 100370-2002-1-000098)
 dated March 27, 2002

EPA Grants Awarded to the Lower Brule Sioux Tribe (Report No. 100370-2002-1-000099)
 dated March 29, 2002




                                             25               Report No. 100370-2002-1-000100
                                                                 Increased Region 8 Involvement
                                                            Would Improve Tribal Program Results


                                                                                  Appendix IV
                                         Distribution


Office of Inspector General
       Inspector General

EPA Headquarters Office
     Assistant Administrator, Office of Administration and Resources Management (3101A)
     Associate Administrator for Congressional and Intergovernmental Relations
       (1301A)
     Associate Administrator for Communications, Education, and Media Relations
       (1101A)
     Comptroller (2731A)
     Director, American Indian Environmental Office (4104)
     Director, Office of Grants and Debarment (3901R)
     Director, Grants Administration Division (3903R)
     Director, Office of Regional Operations (1108A)
     Agency Followup Official (2710A)
     Agency Audit Followup Coordinator (2724A)

Region 8 Office
      Assistant Regional Administrator, Office of Technical and Management Services
      Assistant Regional Administrator, Office of Partnerships and Regulatory
         Assistance
      Regional Counsel
      Associate Assistant Regional Administrator, Office of Partnerships and
         Regulatory Assistance
      Director, Tribal Assistance Program
      Director, Grants, Audits, and Procurement Program
      Director, Financial Management Program
      Director, Office of Communication and Public Involvement
      Audit Followup Coordinator




                                               26                Report No. 100370-2002-1-000100
